NO. 20-1305

IN THE

Supreme Court of the United States
DOUGLAS J. HOLDINGS, INC., ET AL.,
Petitioners,
v.
JOY EBERLINE, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court Of Appeals
for the Sixth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that I am a
member in good standing of the bar of this Court and that Douglas J. Holdings, Inc.,
et al.’s Petition for a Writ of Certiorari contains 2,820 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d), and complies with
the word limitation established by Supreme Court Rule 33.1(g)(iii).

Dated: May 17, 2021

Matthew T. Nelson

